~44QCo

t\ T
No.

Supreme Court, U.S.
FILED

JUWI 6 2011
OFFICE OF THE CLEf K

IN THE
SUPREME COURT OF THE UNITED STATES

Charles Edwin Tunriinson

— PETITIONER

(Your Name)
vs.

Bobby Lumpkin, Director of Texas
Department of Criminal Justice — respondent(S)
on petition for a writ of certiorari to

U.S. Court of Appeals - 5th Circuit (Cause # 20-20086)
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Charles Edwin Tumlinson
(Your Name)

938 S. FM 1673
(Address)

Snyder, TX. 79549
(City, State, Zip Code)

N/A
(Phone Number)

I

(Questions Presented - Page 1 of 2 pages)
Questions concerning U.S. Court of Appeals decisions in conflict with the Supreme Court of the
United States decisions and case law and the U.S. Court of Appeals - 5th Ckt. in conflict with other
U.S. Court of Appeals, including the 2nd Ckt., and concerning the 6th and 14th Amendments of the
U. S. Constitution.
1. Should the lower federal courts be allowed to continue to violate the Supreme Court of the
United States' case law and deny Pro-Se applicants' relief when their petitions have Fundamental
Miscarriage of Justice claims and violations of the 6th and 14th Amendments of the U.S. Constitution
claims; especially, when such claims can lead to a possibly actually innocent petitioner being illegally
imprisoned?
2. Should an applicant or petitioner be barred (denied) justice and relief for Fundamental
Miscarriage of Justice and U.S. Constitutional violation claims; especially, when lower federal courts
and state courts do so through procedural rules and laws which are lesser and contrary to the U.S.
Constitution?
3. When a petitioner needs Counsel or an Evidentiary Hearing in order to prevent a
Fundamental Miscarriage of Justice, should the Court appoint Counsel or order an Evidentiary
Hearing?
4. When a petitioner does not request Counsel or an Evidentiary Hearing for claims of Actual
Innocence, or Fundamental Miscarriage of Justice, or a 6th or 14th Amendment of the U.S.
Constitution violation, does the court not have the right and even the obligation to uphold the U.S.
Constitution, to do justly, and appoint counsel or order the lower court to grant an Evidentiary
Hearing and/or other relief or assistance to ensure fundamental justice and to uphold the U.S.
Constitution?
5. Does the Supreme Court of the United States' own procedural rules prevent justice and
deny U. S. Constitutional rights, by procedurally time barring the Supreme Court of the United States
clerk from accepting and filing "Petition for Writ of Certiorari" or other Motions, etc.; especially, pro
se indigent applicants with claims of Fundamental Miscarriage of Justice and U.S. Constitutional
violations; particularly, when wrongful imprisonment may have possibly resulted for an actually
innocent person?
6. Is the 5th Ckt. U.S. Court of Appeals in conflict with the 2nd Ckt. U.S. Court of Appeals'
decision in U.S. vs Rosillo. 853F.2d 1062,1066»6f (1988) because the Trial court did not make an "onrecord" account of medications before entering a guilty plea and the 5th Ckt. has not reversed this
error?

(Questions Presented - Page 2 of 2 pages)
__:

7—Shouid-tbeJxial Court judge,-and-other-sT-be-aliQw^d-tQJ-r-ee-lv-change-t.he4efeoda-p4:-s-plea-

agreement after the defendant signs it, by simply making an "on-record" account of doing so;
especially, by illegally changing the defendant's plea to "guilty"?
8. Should the trial court be allowed to enter an "Uncognizable Plea" as "Guilty"?
9. Will a Fundamental Miscarriage of Justice result in failure to entertain claims (Schlup v.
Delo), when the petitioner is denied the "necessity" of a lawyer (Evitts v. Lucev - the Supreme Court
of the United States) to prepare and present claims of Ineffective Assistance of Counsel on Appeal.?
10. Does the "necessity" of a lawyer apply to Pro Se applicants with possible grounds for a
"Petition for Writ of Certiorari" (such as violations of the 6th and 14th Amendments of the U.S.
Constitution, U.S. Court of Appeals conflicts with the Supreme Court of the United States, or
Fundamental Miscarriage of Justice claims)?
11. Did this petitioner suffer issues from "Exparte Garcia" (Criminal Court of Appeals of Texas

- 2016)?
12. Should the "Rules of the the Supreme Court of the United States" yield for the fulfillment
of "Constitutional Guarantees" in light of (Washington v. Texas, the Supreme Court of the United
States) and (Whitmore v. State) or to prevent a "Fundamental Miscarriage of Justice"?

/

44ST-OF-PART4ES

[V^All parties appear in the caption of the case on the cover page,
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

TABLE OF CONTENTS
OPINIONS RFI n\A/

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF CASE

4-5

REASONS FOR GRANTING THE WRIT

6-11

CONCLUSION

12

INDEX TO APPENDICES
APPENDIX A

(U.S. District Court - 4-23-2020) ..................

13

APPENDIX B

(U.S. Court of Appeals - 5th Ckt. - 3-25-2021)

14

Appendix C

(U.S. Court of Appeals - 5th Ckt. - 4-20-2021)

15

INDEX TO EXHIBITS
EXHIBIT A

(Trial Court Transcript of Plea Agreement Hearing)

16-33

EXHIBIT B

(Letter from Attorney -12-22-2014)

34-35

EXHIBIT C

(Military Discharge Pare - DD214)

36

TABLE OF AUTHORITIES CITED (page 1 of 2)
PAGE NUMBER

fASFS

1.

Alvarez v. State of Texas; Court of Appeals of Texas (1st District) Houston; 2002

9

79 S.W. 3d679; #01-99-01444 CR; 2002 Tex. App. Lexis 5014
2.

Blue Texas Court of Criminal Appeals, 41 S.W. 3dat 131-133 See reference in
Melvin Lee Duke v. State of Texas. Texas Court of Appeals 14th District #01-16-00245-CR

9

3.

Bostick v. Stevenson; U.S. Court of Appeals (4th Ckt.) #08-6331; Decided: Dec. 17, 2009;

6

589 F.3dl60; 2009 U.S. App. Lexis 27724
4.

Evitts v. Lucev; Supreme Court of the United States Jan, 21,1985; 105 S. Ct. 830;

7,9

#83-1378; 83 LED 2d 821; 469 U.S. 387
5.

ExParte, Garcia. Irving Magana Garcia, Court of Criminal Appeals of Texas, 2016;

8

486 S.W. 3d 565; WR-83, 681-01; (April 6, 2016)
6.

Hodge v. USA; U.S. Court of Appeals (3rd Ckt.) Feb. 3, 2009; No. 08-1918; 554 F.3d 372;

6,8

2009 U.S. App. Lexis 1952
7.

Martinez v. Ryan; 182 LED 2d.272; 566 U.S. 1; Supreme Court of the United States -

7,8

March 20, 2012; 132 S. Ct. 1309; #10-1001
8.

Massingill v. State of Texas; Court of Appeals of Texas (3rd District) Austin;

9

1999 8 S.W. 3d733; decided: Dec. 16,1999
9.

McQuiggin v. Perkins. Supreme Court of the United States Decided: May 28, 2013;

8

569 U.S. 383; 133 S. Ct. 1924; 185 LED 2d 1019; #12-126
10. Prudhomme v. State of Texas; Court of Appeals of Texas (6th District) Texarkana;

9

28 S.W. 3d 114; #06-99-00114-CR; Aug. 16, 2000: 2000 Tex. App. Lexis 5438
11. Rogers v. Maggio; U.S. Court of Appeals (5th Ckt.) #82-3640; Sept. 9,1983;

4,7

12. Schlup vs Delo (Supreme Court of the United States), 115 S. Ct 851; #93-7901

8

Decided: Jan. 23.1995:130 LED 2d808; 513 U.S. 298
13. Townsend v. Sain; 372 U.S. 293; 9 LED 2d 770, Supreme Court of the United States

7

March 18.1963): 835 S. Ct. 745
14. Trevino v. Thaler. Supreme Court of the United States Decided: May 28, 2013;

569 U.S. 413; 133 S. Ct. 1911;

185 LED 2d 1044; #11-10189

4,7,8

TABLE OF AUTHORITIES CITED (page 2 of 2)
PAGE NUMBER

OASES

15. U.S. vs Rosillo; U.S. Court of Appeals (2nd Ckt.); Aug. 11,1988; 853F.2d 1062;

5,9

Docket #87-1437; 1988 U.S. App. Lexis 11097
16. U.S.A. v. Birdwell; U.S. Court of Appeals (5th Ckt.) #88-4652; Nov. 8,1989; 887 F.2d643;

4,7

1989 U.S. App. Lexis 16880
17. U.S.A. v. Correa-Torres: U.S. Court of Appeals (1st Ckt.) 2003; #01-1172; April 9, 2003;

9

326 F.3dl8; 2003 U.S. App. Lexis 6731
18. Whitmore v. State of Texas; Court of Appeals of Texas; Oct. 13,1976;

8

570 S.W. 2d889; 1976 Lexis 11097

STATUTES AND RULES
1. Federal Rules of Criminal Procedures - Rule 11 - Guilty Pleas Rule 11 (b)(1)(B),

9,10,11

Rule 11 (b)(2) and Rule 11 (b)(3)
2. Texas Criminal Law Code Article 26 and Article 27 on both Not Guilty Pleas and

11

on Guilty Pleas
3. "Texas Criminal Practice Guide" (Evidentiary Hearings) Page 6 - "[1] In General",

9

Pages 7-9 - "[2] Hearing Required", ©2016 Matthew Bender & Company, Inc.
(a member of the Lexis Nexis Group)
4. Texas Rules of Evidence 103(e)

9

OTHER

1.

"The Georgetown Legal Journal Annual Review of Criminal Procedures (2012)"
pages 430-431, 441-442 on entering a Guilty Plea F.R.C.P. Rule 11

10

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[VKJbr cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
• ;or,
[ ] reported at
[ ] h^s been designated for publication but is not yet reported; or,
(tfls unpublished.

B

, A

The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
unpublished.
t ] For cases from state courts:

The opinion of the highest state court to review the merits appears at
Appendix ______ to the petition and is
[ ] reported at
; or,
[ 3 has been designated for publication but is not yet reported; or,
[ ] is unpublished.
court
The opinion of the _
to the petition and is
appears at Appendix
[ ] reported at
■ I or,
{ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

1

to

to

JURISDICTION

[bf'For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was

frWch.as:..aQai
.
t

[ ] No petition for rehearing was timely filed in my case.
[kfA timely petition for rehearing was denied by the United States Court of
Appeals on the following date:
\ <30/<30c3 /
, and a copy of the
order denying rehearing appears at Appendix
, .
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_____
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. §1264(1).

£ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix------- [ ] A timely petition for rehearing was thereafter denied on the following date:
___________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including ___
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

-----CONSIimilONAt AND STATUTORY PROVISIONS INVOLVED

/4m0nd/m€'r&
Uml&fCmSft-brfipnS
I ifth-flr/vendm&nfr 0^ -fAe thtfied ^-hdtg Cosiffy’hi'httnns
f~ec[&reJ[

-/t*r (-{l<n rwt-f Pr&ce,d!ula^s

3

£i»){^£C£)

STATEMENT OF THE CASE (Page 1 of 2)
L_Charles Edwin Tumlinson. did plead Not Guilty in cause #50946 in Brazoria County, Texas, but the
trial court refused to enter my "Not Guilty" plea and, therefore, entered a coerced "Guilty" plea and also
changed my plea to guilty on my plea agreement after I had signed the agreement (Please see trial court plea
hearing transcript in Exhibit A, page 11 line 18 and ground # 12 in [22.54] Writ of Habeas Corpus). Also, page
12, lines 10-12,16-18, of Ground #21. Furthermore, I do have a viable actual innocence claim. And, I have U.S.
Constitutional rights to a fair trial by jury to determine the viability of my actual innocence claims. Moreover, I
have never received a fair trial by jury to determine the viability of my actual innocence claims. As per my
previous petitions and appeals, I have always wanted a fair trial by jury.

First, the trial court changed my plea on the plea agreement to "guilty," after I had signed the plea
agreement. I did not want to change my "not guilty" plea to guilty nor to nolo contendere (no contest). And,
my trial counsel did not object to the Judge making these changes after I had signed the plea agreement. I am
innocent and I had refused to change my "not guilty" plea. The Court crossed out "nolo contendere" on my
already signed plea agreement to involuntarily change my plea to "guilty" on the signed plea agreement. And
my appeal attorney refused to address these issues. See the trial judge's statement on the plea agreement
court transcript page 12, lines 10-11, of Exhibit A, "The Court: All right. I'm adding a few things, like crossing
out, but nothing changing what you signed." (See Exhibit A - pg. 12, lines 10-12,16-18) Plea agreement
altered by Judge after being signed - plea is altered on page 3.

Furthermore, according to the U.S. Court of Appeals (5th Ckt) case law and rules, I am entitled to an
Evidentiary Hearing, USAv. Bird well (5th Ckt. #88-4652) and Rogers v. Maggio (5th Ckt. #82-3640). No court has
given me an Evidentiary Hearing. Please, either grant me an Evidentiary Hearing or direct the lower court,
either the 5th Ckt. or the U.S. District Court, to grant me an Evidentiary Hearing. Thank you! God bless you!

Also, I was on medications; the trial court did not inquire about medications and the trial court did not
make an "on-record account" of my medications before entering the (illegally and coerced) guilty plea. The
4

STATEMENT OF THE CASE (Page 2 of 2)
"on-record account" of my medications. Additionally, the
State agrees that an on-record account" of my medications is required by law, before entering a guilty plea.
Furthermore, the U.S. Court of Appeals (2nd Ckt.), in U.S. vs Rosillo. 853F.2d 1062,1066f, states that this is a
reversible error, because this violates both the 6th and the 14th amendments of the U.S. Constitution.

Fact: Moreover, the trial court did not make an "on-record" account of my mental health issues, as
per my U.S. military discharge paper (exhibit C), "Personality Disorder" (a.k.a. - P.T.S.D.) before entering a
plea.

Additional facts: When the Trial Court altered my plea agreement after I signed it. the court altered
my plea, against my will, to guilty; and the judge added a case # to my already signed plea agreement (see
exhibit A, Transcript page 12, lines 10-12). The plea agreement did not have a case # when I signed it. The
case number appears only once and is handwritten. This is the judge's doing (see exhibit A, page 12, lines 1012). The trial court judge admits on the record to writing in the case number. Moreover, the plea agreement
is titled for the 23rd Judicial District Court and not for the 149th Judicial District court, where the hearing and
judge altered my plea agreement after I had signed it (see Trial Court Transcript-exhibit A). Additionally,
the Trial Court judge, in the 149th Judicial District Court in Brazoria County, Texas, stated that he was directing
"Lacy" (possibly Lacy the district clerk) to further alter my previously signed plea agreement (see Exhibit A
Trial Court Transcript page 12, lines 16-18). My trial counsel never objected. I was scared and intimidated
and felt threatened and helpless. This is a gross fundamental miscarriage of justice and a gross ineffective
assistance of counsel that the appeals courts refuse to hear, review, and correct, which violates my rights in
the 6th and^111 Amendments in the U.S. Constitution. But for these errors, the outcome would have been
different. I am actually innocent; and, there are more facts that I cannot bring forward without an
Evidentiary Hearing and counsel to assist me in doing so.

5

REASONS FOR GRANTING THE PETITION (Page 1 of 6)
I received ineffective assistance of trial counsel and ineffective assistance of appeal counsel, loss of
Due Process and other violations of my U.S. Constitution's 6th and 14th amendments. These resulted in
fundamental miscarriages of justice. Such claims of fundamental miscarriages of justice are grounds for
overcoming procedural defaults, including a time-bar under the A.E.D.P.A. (Hodge vs U.S.A.. U.S. Court of
Appeals-3rd Ckt. (Feb.3, 2009). In Hodge vs U.S.A.. petitioner was only seeking a re-sentencing and not an
actual innocence claim, (an actual innocence claim underscores a greater miscarriage of justice) The 3rd Ckt.
(U.S.C.A.) granted relief to petitioner in overcoming the procedural time-bars, under the A.E.D.P.A. My claims
of actual innocence, ineffective assistance of trial counsel and ineffective assistance of appeal counsel, loss of
Due Process and other violations etc. are a more serious set of violations of my U.S. Constitutional rights and
are a more serious miscarriage of justice. In Bostick vs Stevenson. U.S. Court of Appeals - 4th Ckt., (Dec.17,
2009), a certificate of appealability was granted. The 4th Ckt. Granted relief on overcoming the procedural
defaults without a viable actual innocence claim. In Bostick vs Stevenson. "Procedural Posture: Inmate's
habeas [Corpus] petition asserted his counsel was ineffective for not consulting with him about an appeal...
counsel was ineffective as to the duty to consult about an appeal and habeas relief was proper." In my case,
my appeal counsel stated that he was not appointed to file an 11.07 writ of habeas corpus; therefore, he
refused to even consult with me on these issues, including ineffective assistance of trial counsel (I.A.T.C.), (see
Exhibit B - letter from my appeal attorney). In Bostick vs Stevenson. "Outcome: The district court's grant of
summary judgment to the [respondent] warden [of "finding the claim was procedurally defaulted"] was
reversed. The case was remanded to the district court with instructions that it issue the writ of habeas corpus
and order the inmate released from prison unless the State granted him a direct appeal within a reasonable
time."

In Hodge vs U.S.A.. "The inmate challenged the trial court's decision. Inmate whose counsel had failed
to directly appeal his life sentence satisfied the cause and prejudice exception to procedural default based on
ineffective assistance under the Sixth amendment."
6

REASONS FOR GRANTING THE PETITION (Page 2 of 6)
-Therefore, herein. I am requesting appealability of the court's decisions on January 17, 2020 be
granted concerning my Petition for Writ of Habeas corpus.

Additionally, I am requesting that the court appoint me counsel as well as grant me an evidentiary
hearing in these matters, or else direct the U.S. District Court to grant me an evidentiary hearing. I will need
more time to file a motion to appoint counsel, as well as, a motion for an evidentiary hearing, (Evitts v. Lucev,
Townsend v. Sain. Rogers v. Maggio. U.S.A. v. Birdwell).

Furthermore, I am requesting more time to file the Notice of Appeal and additional motions, etc.,
because I am without counsel and I am wrongfully imprisoned. Also, I do not have access to a computer, nor
access to the internet to assist in filing court documents, etc. And, I do not understand the court's appeal
process, procedures, and rules, etc.

I am actually innocent and failure to review my claims will result in a "Fundamental Miscarriage of
Justice" and continued violations of my constitutional rights under the 6th and 14th Amendments of the U.S.
Constitution. My constitutional rights were impeded by "some objective factor external to my defense."

A procedural default should not bar this Habeas Corpus from being heard in federal court, because
there is a substantial claim of Ineffective Assistance of Trial Counsel and in the initial review proceedings
there was no counsel or ineffective assistance of counsel in the appeals process (Martinez vs. Ryan. (Supreme
Court of the United States - March 20, 2012)). And, in Trevino vs. Thaler. (Supreme Court of the United
States - May 28, 2013), "certiorari was granted because in Texas it was highly unlikely that an inmate had a
meaningful opportunity to raise an Ineffective Assistance of Trial Counsel claim on Direct Appeal, procedural
default did not bar a Federal Habeas Court from hearing it, where initial review in collateral proceedings was
ineffective." My attorney on appeal refused to appeal my ineffective assistance of trial counsel claims,
including where the trial court erred on entering my plea. See (Transcript - Exhibit A, page 11, line 18) and
(Exhibit B-a letter from appeal counsel, page 1 [near bottom]). I had a right, not a privilege, to have my plea
7

REASONS FOR GRANTING THE PETITION (Page 3 of 6)
riacifipH and rnrrprted to "Not Guilty." both during the hearing and on appeal. Exhibit B - a letter from
appeal counsel, on page 1 (near bottom) shows that my attorney, on Direct Appeal, refused to appeal
Ineffective Assistance of Trial Counsel and loss of Due Process. Furthermore, see Irving Magana, Exparte
Garcia. Court of Criminal Appeals of Texas, (2016) where Justices Alcala and Johnson, supported by Supreme
Court of the United States in Trevino vs. Thaler (May 28, 2013) and Martinez vs. Ryan (Supreme Court of the
United States - March 20, 2012), also see Whitmore vs Texas. When a procedural rule comes in conflict with
a fundamental constitutional right, it is clear that the procedural rule must yield. Schlup vs Delo (Supreme
Court of the United States), - An actual innocence claim is an acceptable exception to a procedural bar rule.
Also, see Hodge vs USA (3rd Ckt) (Feb. 3, 2009) and McQuiggin vs Perkins (Supreme Court of the United States
- May 28, 2013. The Supreme Court of the United States stated that a Fundamental Miscarriage of Justices is
a type of Actual Innocence Claim.

My Ineffective Assistance of Trial Counsel claims and loss of Due Process claims were never heard nor
given meaningful review, and I lost my right to a fair trial. Furthermore, I was denied an opportunity to raise
the errors on direct appeal when I was denied assistance of counsel on appeal for new trial. The Supreme
Court of the United States agrees that these types of issues give exception to overcome procedural time bars and qualify for Habeas Corpus relief, Trevino vs. Thaler (Supreme Court of the United States - May 28,
2013), and McQuiggin vs Perkins (Supreme Court of the United States - May 28, 2013) on Writ of Certiorari
from the Supreme Court of the United States to the Fifth Circuit U.S. Court of Appeals and the Sixth Circuit
U.S. Court of Appeals, respectively.

Furthermore, to be clear, the trial court was required to make an "on record" account of whether or
not I was on medication before entering a guilty plea. If the trial court or my trial counsel did not know that I
was on medication, the trial court was still required to an "on record" account by inquiring if I was on

8

REASONS FOR GRANTING THE PETITION (Page 4 of 6)
mgrliratinn. Thp trial court failed to insure that my plea was knowingly and voluntarily made, because the
trial court did not make an "on record" account of whether or not I was on medication. In addition, my trial
counsel was ineffective because he failed to ensure that the trial court made an "on record" account by
inquiring if I was on medication before entering a guilty plea. According to the U.S. Court of Appeals (2nd Ckt),
in U.S. v. Rosillo. this is a most reversible error because the State agrees that I was on medication at the time
that the trial court entered my coerced guilty plea without making an "on record" account; thereby, violating
my rights in the 6th and 14th Amendments of the U.S. Constitution. I was heavily medicated at the time, due
to my "Personality Disorder," Anxiety, and P.T.S.D., as documented on my DD-214 Military Discharge papers
(Exhibit C), under reason for Honorable Discharge. The trial court did not make an "on record" account of my
medical conditions either. So, the U.S. Court of Appeals (5th Ckt.) and the Criminal Court of Appeals of Texas'
decisions are in conflict with the U.S. Court of Appeals (2nd Ckt.) well established case law in U S. v. Rosillo.

Moreover, the case-law, in the following cases, is relevant to this petition, respectively, Massingill v.
State of Texas. Prudhomme v. State of Texas. U.S.A. v. Correa-Torres. Alvarez v. Texas. Evitts v. Lucev.

And, the following case-law and authorities are in reference to Petitioner's request for Evidentiary
Hearing: Blue. Texas Rules of Evidence 103(e). "Texas Criminal Practice Guide" - 5th Ckt. on Evidentiary
Hearings.

In exhibit A, attached (in original appeal) pg. 11, line 18, in copy of the court transcript, the
defendant's plea of "not guilty. Oh, oh, guilty," is uncognizable. (Uncognizable: incapable of being judicially
determined.) Therefore, the court should NOT have entered the plea as "guilty" per F.R.C.P. rule 11(b)(1)(B),
and rule 11 (b)(2). Furthermore, this was illegal and in violation of the defendant's U.S. Constitutional rights to
a fair trial and due process under the 6th and 14th amendments of the U.S.C.
Uncognizable should not be mistaken for uncogitable or unconscionable, even though uncogitable and
unconscionable do apply here-in.

9

REASONS FOR GRANTING THE PETITION (Page 5 of 6)
For the court to enter a guilty plea under these conditions without "sensitive regard for fairness or justice" is,
also, unconscionable. Furthermore, due to the effect of the medication taken by the defendant, the plea was
uncognizable. Therefore, for the court to enter a guilty plea is unconscionable.
(Un)cognizable: 1.) (Not)capable of being judicially heard and determined.
(or)

2.) (Not)capable of being known.

(Un)intelligible: (Not)capable of being understood or comprehended.
An uncognizable plea is judicially unintelligible; and, an unintelligible plea entered as a guilty plea is a
violation of the Federal Rules of Criminal Procedures (F.R.C.P.) Rule 11(b)(1)(B) per 'The Georgetown Legal
Journal Annual Review of Criminal Procedures (2012)" pgs. 430-431 and is in violation of the sixth and
fourteenth amendments of the United States Constitution (U.S.C.).
Also, an uncognizable plea being entered by the court as a guilty plea creates an involuntary plea
by the defendant. And, an involuntary plea is a violation of the F.R.C.P. Rule 11(b)(1)(B) and 11(b)(2) and
11(b)(3) per Geo. L. J. Ann. Rev. Crim. Proc. (2012), pgs. 430-431,441-442; because "...the constitution
requires that a defendant's plea be made voluntarily, knowingly, and intelligently, 'and', additionally, the
court must ensure that the plea is voluntary"..." Therefore, this, also, is in violation of the 6th and 14th
amendments of the U.S.C.
Furthermore, an involuntary plea is both a compulsory plea and a coercive plea.
Involuntary:

1.) Done contrary to or without choice; 2.) compulsory; 3) not subject to the control of

the will.
Compulsory: 2.) Coercive
Coercive:

1.) Serving to Coerce

Coerce:

2.) to compel to an act or choice... Was coerced into agreeing [Definitions per

Merriam-Webster's Collegiate Dictionary llth Edition 2012]

10

REASONS FOR GRANTING THE PETITION (Page 6 of 6)
Therefore, the court cannot enter a guilty plea for an uncognizable plea, because an uncognizable plea is
incapable of being judicially intelligible (known or determined). And, an uncognizable plea that is entered as a
guilty plea by the court is both an involuntary plea by the defendant and a coercive plea as well.
Initially, the court violated the F.R.C.P. Rules 11(b)(1)(B), 11(b)(2) and 11(b)(3) and Texas Criminal Law
Code Article 26 and Article 27 on both Not Guilty Pleas and on Guilty Pleas by entering an uncognizable
plea, which is judicially unintelligible, involuntary, and coercive, as a guilty plea. This led the court to violate the
.!

defendant's 6th and 14th amendment rights in the U.S.C. Specifically, denying the said defendant's rights to a fair
and speedy trial by jury and due process through an illegally entered plea by the court and continued ineffective
assistance of counsel.
Relief sought in this Petition:
1.

Petition for Writ of Certiorari

2.

That the Supreme Court of the United States grant my Certificate of Certiorari.

3.

Relief on overcoming the procedural defaults, including time - bars and rules, etc.

4.

An evidentiary Hearing to establish the facts and expand the record.

5.

Appointment of appeal counsel.

6.

The Plea Agreement, adjudications of guilt, revocations, and sentencings for Cause #50946 (both
counts) in Brazoria County, Texas be thrown out, overturned (vacated).

7.

Petitioner's pleas for all charges (counts) in Cause #50946 be corrected and entered as "Not Guilty."

8.

That the State's criminal cases in Cause # 50946 be dismissed with prejudice, due to Double Jeopardy.

9.

The Court declares my actual innocence and exonerates me.

••

10. The Court orders my immediate release from prison (Texas Department of Criminal Justice System).
.*•

J

11

